%

Supreme Court
of the United States
X
:

Petition for a Writ of Certiorari
to NYS Court of Appeals

Gerald Aranoff,
Petitioner

Supreme Court.
FILED

u.s.

MAY 18 2021

against|

OFFICE OE THbCLERK

Susan Aranoff.
Respondent

:

X

State of Israel
Tel-Aviv

SS:

Gerald Aranoff, being duly sworn, deposes and says:
&
s (7

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision. net .il

RECEIVED
MAY 2 1 2021

1

t

\

l

Questions Presented
The questions presented:
Can an elderly USA citizen living in Israel continuously since July 9, 1991 except for 1
week August 1992, appeal to the United States Supreme Court to overturn

a NYS court

order QDRO?
Can an elderly USA citizen living in Israel prove deliberate fraud of NYS judges/clerks7
Can an elderly USA citizen living in Israel, remarried, appeal to the United States
Supreme Court to annul Judge Prus signed NYS civil divorce 9/10/2013?

Contents
1

Opinions Below

1

2 Statement of the Case

2

3 Reasons for Granting the Petition

7

4

Conclusion

8

5

List of Appendices

9

:

List of Parties
All parties appear in the caption of the case on the cover page.
Susan Aranoff, Respondent
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff'@gmail .com:
Iff.
Gerald Aranoff, Petitioner
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il

\

!
1

1

Opinions Below

See Appendix A
State of New York
Court of Appeals
Decided and Entered on the
sixth day of May, 2021
Present, Hon. Janet DiFiore, Chief judge, presiding

Mo. No. 2021-359
Susan Aranoff,
Respondent,
v.
Gerald Aranoff,
Appellant.

Appellant having moved for reargument of motion for leave to appeal to the Court
of Appeals and for poor person relief in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the Motion is denied

John P. Asiello
Clerk of the court

\

)
2

2

Statement of the Case

1. I request permission to make this petition. I’m acting pro se. I request the Court
to combine this petition with my docket numbers 18-7160 18-9390, 20-6525. and
7892. I request the Court to accept m3' papers without notarization since
in Israel, a US citizen can only get court acceptable notarizations from the US
embassy by appointment, and none are available now. I request the Court to
accept my papers on size A4 paper and not letter size since in Israel it’s hard to
obtain letter size papei. I request the Court to accept one copy from me since it’s
difficult for me to prepare 10 copies. My dear wife, Yemima,, is retired from her
employment as a clerk at Bank Mizrachi. We were married May 9, 1993, after I
divorced Susan February 17, 1993. We are blessed with 3 daughters: Hadassah,
Tamar, and Sapphire Rivka. Each has a USA social security number. I ask the
court to allow me to report only my income and assets as Yemima’s income and
assets are not large and not relevant.
2. I seek from the Supreme Court of the United States:
First, for a decision that NYS courts have no more control over the QDRO that
tells TIAA to pay Susan 55% of my pension with no end in sight in violation of
ERISA. Second, to cancel and nullify Judge Prus

awarding my house to Susan.
Third to cancel and nullify $25,000 in fines unpaid against me ($10,000 + $10,000
of Riglei/Rothbart and $5,000 of Garson/Rothbart):
3. The Rules of the Court state: “Review on a writ of certiorari is not a matter of
nght, but of judicial discretion. A petition for a writ of certiorari will be granted
only for compelling reasons.” I’m asking the court to accept my petition on the
grounds of fraud/forgery/etc. Time limits on filing cases based on fraud/forgery etc
are extremely long. Often the police and court officials show no interest in evidence
of crimes of fraud/forgery. An aggrieved party may have to be
patient over many
years, as I am for overwhelming evidence to emerge of crimes fraud/forgery.
4. NYS Get Law DRL 253 states:
New York Domestic Relations Law Sec. 253 Removal of Barriers to'Re­
marriage l.This section applies only to a marriage solemnized in this
state or in any other jurisdiction by a person specified in subdivision

3
one of section eleven of this chapter. ... 8.Any person who knowingly
submits a false sworn statement under this section shall be guilty of
making an apparently sworn false statement in the first degree and shall
be punished in accordance with section 210.40 of the penal law. 9.Noth­
ing in this section shall be construed to authorize any court to inquire
into or determine any ecclesiastical or religious issue. The truth of any
statement submitted pursuant to this section shall not be the subject
of any judicial inquiry, except as provided in subdivision eight of this
section.
5. Section 210.40 of the penal law states:
A person is guilty of making an apparently sworn false statement in
the first degree when he commits the crime of making an apparently
sworn false statement in the second degree, and when (a) the written
instrument involved is one for which an oath is required by law, and (b)
the false statement contained therein is made with intent to mislead a
public servant in the performance of his official functions
and (c) such
false statement is material to the action proceeding or matter involved,
Making an apparently sworn false statement in the first degree is a class
E felony.
6. The Get solemnizes the dissolution (formal end/breakup) of

a marriage, man to
woman performed under Jewish law before witnesses. Once Susan received the
Get I sent her from Israel in Rabbi Aryeh Ralbag’s bet din in Brooklyn, before

witnesses, on 2/17/1993, I became a free man free to remarry. The ten commandments, no adultery, would no longer apply to Susan. Passover is the holiday of
freedom. Susan’s sworn statements that Judge Rigler signed an order of separation
March 1995 are false. I claim that Susan and Myla Serlin forged the fake/phony
Rigler March 1995 order of separation. Total

nonsense Judge Pesce’s statement in
his letter that my children from Yemima are illegitimate because NYS courts did
not recognize the 2/17/1993 Israel divorce.
7. Judge Prus made a knowingly false statement in the August 2013 Inquest that the
Get I sent Susan from Israel in Rabbi Aryeh Ralbag’s bet din in Brooklyn, before
witnesses, on 2/17/1993 was a religious ceremony. Judge Prus refuses to send
me
a co Py °f the fake/Ph°ny 1995 Rigler/Rothbart order of separation. Judge Prus
refers to the fake/phony 1995 Rigler/Rothbart order of separation in his 9/10/2013
NYS civil divorce me and Susan. Judge Prus refuses to allow suspension of TIAA

4
paying Susan 55% of my pension. I became free of Susan, free to remarry 2/17/1993
because of the Get. Further, Judge Prus’ statement in the 9/10/2013 NYS civil
divorce that his court retains control of the QDRO is a false statement a 1st
degree perjury, a class E felony, in my opinion. Susan won the house, the $10,000
will money, 55% of my pension from early 1994—there’s no good reason to retain
control of the QDRO in Judge Prus’ court.
8. When judges say over and over that everything I say is frivolous, these are false
statement under f8. Statements with implication that I don’t deserve poor per­
son relief are also false statements under f8. Statements Rigler/Rothbart made
that my wife Yemima whom I married May 9, 1993 has no standing in a QDRO
proceeding are false statements under f8. Statements that I just try to prolong
court proceedings for no good reason are false statements under ^[8. Yes I try to
be free of blame in my court papers. My reason: “Then you will find grace and
good sense In the sight of God and man” (Proverbs 3:4).
9. Inquest August 1, 2013 [defendant not present at the proceedings]
[page 3] THE COURT: What he says here, my main reason is that I al­
ready divoiced Susan February 17th, 1993. That was a religious divorce.
MS. SERLIN: It was a religious divorce in Israel without participation
or knowledge of my client. THE COURT: Right. There were no is­
sues involving equitable distribution? MS. SERLIN: There is a marital
lesidence. That is the one and only issue. The separation agreement
that they entered into, and there is a separation before, gives exclu­
sive possession to my client. THE COURT: What does it say as far
as equitable distribution of that? .. .MS. SERLIN: He abandoned the
property in 1991. THE COURT: And you client is seeking the [page 4]
entire property? MS. SERLIN: She has p[aid all the mortgage payments,
all the taxes, all the repairs. She is you honor. THE COURT: Is the
plaintiff collecting any part of the defendant’s pension? MS. SERLIN:
She is. Because he never paid child support. She got a QDRO for the
child support. And they taxed his pension. .. [page 6] THE PLAINTIFF;
Right now. it’s variable. Right now, I’m getting $703.00 a month. THE
COURT: And this case was before Judge Garson? MS. SERLIN: Most
of it was before Judge Rigler. All of these decisions were Judge Rigler.
Judge Garson was on it for about two months, but it was nothing was
decided, [page 7] MS. SERLIN: He has focused on Judge Garson, obvi­
ously because— THE COURT: This was a determination -after inquest
or trial or settlement? MS. SERLIN: No. There was an inquest. I have
a transcript of that inquest and which granted her a legal separation

5
at that point. THE COURT: So now you’re seeking conversion divorce
based on separation agreement? MS. SERLIN: Correct. THE COURT:
Did he sign a separation agreement? MS. SERLIN: No. There was a
judgment after inquest that he did fight the separation. They had a
trial where he was represented. And Judge Rigler entered a judgment
after a mini trial or hearing. THE COURT: A judgment of what? MS.
SERLIN: a judgment of separation. THE COURT: Could I see that,
please? MS. SERLIN: Sure, (handing up to the Court.) MS. SERLIN:
And I have the transcript here also, in case you wanted to look at it...
10. The March 7 1995 Rigler/Rothbart Separation Order cannot be explained in any
way other than deliberate fraud by Judge Rigler, Larry Rothbart, Judge Ambrosio
and Judge Prus. Larry Rothbart was the clerk for Judge Gerald Garson at the
time Judge Garson threw Ian Anderson out of his court for no good reason. Larry
Rothbart did the figuring of child support and backdated to when I was still in NY.
Larry Rothbart added a 9% interest to the phony balance. Larry Rothbart
and
Judge Rigler froze my TIAA pension 100% early 1994 till late 1997 for
no good
reason. Tins was especially mean because I told the court in 1993 that I want to
give half of my pension to Susan for child support. Judge Rigler signed a QDRO
in 1997 to award Susan 100% but TIAA blocked that. Judge Rigler ordered TIAA
to pay Susan $23,000+ January 1998 for no good reason. Judge Ambrosio did a
new QDRO in 2007 for no good reason. Judge Prus ruled to give Susan 55% of
my TIAA pension for no good reason.
11. The Get solemnizes the dissolution (formal end/breakup) of
a marriage, man to
woman, performed under Jewish law before witnesses. Once Susan received the
Get I sent her from Israel in Rabbi Aryeh Ralbag’s bet din in Brooklyn, before
witnesses, on 2/17/1993, I became a free man free to remarry. The ten commandments, no adultery, would no longer apply to Susan. Susan’s sworn statements
that Judge Rigler signed an order of separation March 1995 are false. I claim
that Susan and Myla Serlin forged the fake/phony Rigler March 1995 order of
separation. Total nonsense Judge Pesce’s statement in his letter that my children
from Yemima are illegitimate because NYS courts did not recognize the 2/17/1993
Israel divorce.
12. Utter nonsense Susan/Rothbart/Rigler/Pesce that Yemima is my partner and Susan

is

my wife and so my children from Yemima are illegitimate. I quote:

1
6
“And if a man commits adultery with a married woman, committing
adultery with another man’s wife, the adulterer and the adulteress shall
be put to death.” (Leviticus 20:10).
Hertz Churnash p. 507 (edited): “commits adultery. The repetition
of the phiase and the substitution of another man’s wife for a married
woman stress the heinousness of the offense. Marriage is not merely a
contract’; it is a consecration, and adultery is far more than merely an
offense against one of the parties to a contract. It is an offense against the
Divine Command proclaimed at Sinai, and constitutes the annihilation
of holiness in marriage (Z. Frankel).”
13. I lost my property, house and pension, due,to fraud. I lost a PhD in
economics
due to fraud. I’ve been trying for 30 years to overturn NYS court rulings; rulings
I don t understand. I turned to lawyers, police, government agencies, to TIAA,
to Susan, to Fordham University, to Commission on Judicial Conduct, etc. The
Inquest August 1, 2013 Judge Prus, Myla Serlin and Susan

is like the 3 videos
shown to the jury in the Judge Gerald Garson trial; convincing proof the late
Judge Garson took bribes. Very hard to prove in a court that a judge takes bribes.
14. Bad judges like to freeze assets of defendants they don’t like

and even to throw
them into jail for no good reason. Luckily I’m here in Israel and I
can defend
myself by mail using UPS without a lawyer. Bank Leumi just turned me down

to go beyond my 100,000 debt to them.

I’m waiting for my check for $5,600
Biden/Harris Covid payments $1,400 each for me and my Israeli born daughters
Hadassah, Tamar, and Sapphire Rivka to clear. I’m in desperate need of my TIAA
pension. I watch what happens with my six children from Susan from afar and
care deeply.
15. 1 has the right and determination to defend myself. My fight in Aranoff v Aranoff is
to defend my assets: house and pension. I love that SCOTUS puts my documents
on public view. We have a room shelter for me, my wife, daughters, son-law and
grandson. We get 2 minute warnings when we must run to our shelter. We prepare
for the worst and hope for the best.

{

i

7
>

3

Reasons for Granting the Petition

The trial and jail sentence of the late Judge Gerald Garson was just the tip of the
iceberg of fraud etc in NYS civil courts. The Court granting me my petition will
help root out fraud in NYS civil courts.

\

f

t

8

4

i

Conclusion

The petition for a writ of certiorari should be granted.

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Sworn this 18th day of May 2021.

